FY 2009 OFFICE OF INSPECTOR GENERAL
FISMA REVIEW OF GSA’S INFORMATION
  TECHNOLOGY SECURITY PROGRAM
  REPORT NUMBER A090126/O/T/F09011

          September 30, 2009
                                    FY 2009 OFFICE OF INSPECTOR GENERAL
                                    FISMA REVIEW OF GSA’S INFORMATION
                                      TECHNOLOGY SECURITY PROGRAM
                                      REPORT NUMBER A090126/O/T/F09011

                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ........................................................................................................... i

   Purpose......................................................................................................................................... i
   Background .................................................................................................................................. i
   Results in Brief ........................................................................................................................... ii
   Recommendations ...................................................................................................................... iii
   Management Comments ............................................................................................................ iv

INTRODUCTION......................................................................................................................... 1

RESULTS OF AUDIT .................................................................................................................. 2

   Improvements to Agency-wide Certification and Accreditation Processes Would
   Better Assist Management and Provide Additional Information for
   Making Risk-based Decisions..................................................................................................... 3

   Security Controls for Internal GSA Applications Should Be Strengthened to
   Reduce Risks with Sensitive Agency Information and Transactions ......................................... 4

   Enhancing Oversight of Emerging Social Media Technologies Could
   Facilitate Secure Collaboration and Information Sharing
   Within GSA and With the Public................................................................................................ 5

   Strengthening Oversight Processes is Needed to Ensure the Security of
   Contractor Supported Systems .................................................................................................... 7

CONCLUSIONS ........................................................................................................................... 9

RECOMMENDATIONS .............................................................................................................. 9

MANAGEMENT COMMENTS ............................................................................................... 10

INTERNAL CONTROLS .......................................................................................................... 10
                                                          Appendices

APPENDIX A - Objective, Scope, and Methodology ............................................................. A-1

APPENDIX B – Select GSA Systems Considered in the OIG’s FY 2009
Review of GSA’s Information Technology Security Program ................................................ B-1

APPENDIX C – Summary of NIST SP 800-53 Control Areas Where Additional Steps are
Needed to Better Manage Risks for the Select Systems Reviewed
by the OIG in FY 2009 ........................................................................................................... C-1

APPENDIX D – Summary of Security Control Weaknesses Identified in
Internal GSA Applications ...................................................................................................... D-1

APPENDIX E – GSA-CIO’s Response to Draft Report ..........................................................E-1

APPENDIX F – Report Distribution ........................................................................................ F-1
                            FY 2009 OFFICE OF INSPECTOR GENERAL
                            FISMA REVIEW OF GSA’S INFORMATION
                              TECHNOLOGY SECURITY PROGRAM
                              REPORT NUMBER A090126/O/T/F09011

                                       EXECUTIVE SUMMARY

Purpose

The Federal Information Security Management Act of 2002 (FISMA) 1 provides: (1) a framework
for ensuring the effectiveness of information security controls over information resources that
support Federal operations and assets; (2) for the development and maintenance of minimum
controls required to protect Federal information and information systems; and (3) a mechanism for
improved oversight of Federal agency information security programs. Inspectors General (IGs)
are required by FISMA to perform an annual independent evaluation to determine the
effectiveness of their respective agency’s information security program, including testing a subset
of the agency’s information systems. The objective of this audit was to determine if the General
Services Administration (GSA) had developed, documented, and implemented an agency-wide
information security program to provide information security for the data and systems that support
the operations and assets of the Agency. If not, what additional actions are needed to strengthen
information security risk management practices for GSA? Appendix A contains our objective,
scope, and methodology for the audit.

Background

Information security is a critical consideration for GSA as it carries out its mission and responds to
the requirements of the American Recovery and Reinvestment Act of 2009 (Recovery Act). 2
Information security is also important as GSA works to implement transparency and open
government initiatives to make Agency operations more transparent, participatory, and
collaborative. To meet its mission, GSA relies on a portfolio of 94 information systems with a
total enacted budget in FY 2009 of approximately $540 million. 3 GSA has established an agency-
wide IT security program, which is managed by the Office of the Chief Information Officer, to
provide for the confidentiality, integrity, and availability of Agency information systems.

An agency-wide IT security program provides a management framework for ensuring that risks
are understood and that effective controls are selected and properly implemented for Agency
information systems. FISMA is the primary legislation governing Federal information security
programs, and it builds upon earlier legislation through added emphasis on the management of
information security. FISMA directs agencies to develop, document, and implement an agency-
wide information security program to provide information security for the operations and assets of
the agency. Table I below provides the components that must be included in agency information
security programs, as required by FISMA. FISMA also directs IGs to perform an annual
independent evaluation to determine the effectiveness of information security programs and


1
  Title III of the Electronic Government Act of 2002 (Public Law 107-347).
2
  American Recovery and Reinvestment Act of 2009, Public Law 111-5, February 17, 2009.
3
  As reported on the IT Dashboard.

                                                       i
practices of their respective agency. These evaluations are to include: (1) testing of the
effectiveness of information security policies, procedures, and practices of a subset of the agency’s
information systems; and (2) an assessment of compliance with FISMA requirements and related
information security policies, procedures, standards, and guidelines.

                       Table I: FISMA Information Security Program Areas

  Program Area                                      FISMA Requirement
                   Periodic assessments of the risk and magnitude of the harm that could result from the
       Risk        unauthorized access, use, disclosure, disruption, modification, or destruction of
    Assessment     information and information systems that support the operations and assets of the
                   agency.
                   Policies and procedures that (1) are based on risk assessments; (2) cost-effectively
   Policies and    reduce information security risks to an acceptable level; and (3) ensure that
   Procedures      information security is addressed throughout the life cycle of each agency
                   information system.
                   Subordinate plans for providing adequate information security for networks,
     Planning
                   facilities, and systems or groups of information systems, as appropriate.
                   Security awareness training to inform personnel, including contractors and other
     Security      users of information systems that support the operations and assets of the agency, of:
    Awareness      (1) information security risks associated with their activities; and (2) their
     Training      responsibilities in complying with agency policies and procedures designed to reduce
                   these risks.
     Periodic      Periodic testing and evaluation of the effectiveness of information security policies,
    Testing and    procedures, and practices, to be performed with a frequency depending on risk, but
    Evaluation     no less than annually.
                   A process for planning, implementing, evaluating, and documenting remedial action
   Remediation
                   to address any deficiencies in the information security policies, procedures, and
     Process
                   practices of the agency.
    Incident       Procedures for detecting, reporting, and responding to security incidents, consistent
   Management      with standards and guidelines.
   Continuity of   Plans and procedures to ensure continuity of operations for information systems that
    Operations     support the operations and assets of the agency.

This audit report presents the results of the GSA Inspector General’s FY 2009 independent
evaluation of GSA’s IT Security Program, as required by FISMA, and reflects results from system
security audits conducted during the year. Appendix B provides a description of the select GSA
systems considered in our annual FISMA review.

Results in Brief

GSA has taken steps to develop, document, and implement an agency-wide information
technology (IT) security program and also provide information security for the operations and
assets managed by the Agency. The GSA Chief Information Officer recently revised agency-wide
IT security policy and has published several new guides to support risk management activities for
IT systems and to address prior years’ audit findings. We also noted improvements in the
implementation of GSA’s IT Security Program for select agency systems. However, we found
areas where additional improvements are needed in GSA’s IT Security Program and instances

                                                    ii
where system security officials’ practices did not mitigate risks and protect sensitive Agency data
and systems, as required. IT security findings for our annual FISMA review fall into four main
areas: (1) certification and accreditation of system controls, (2) internal application security, (3)
security of social media technologies (e.g., blogs, wikis), and (4) oversight of systems provided by
contractors.     Further, Appendix C summarizes security control areas where we found
improvements were needed to better manage risks for specific GSA systems, including for access
control, audit logging and monitoring, and secure configuration of system devices.

Improvements in these areas could provide management with additional information to make risk-
based decisions on the security of GSA’s IT systems, including those provided by contractors.
Further, focusing IT security program efforts to address risks in these key areas could result in
better protection of sensitive Agency information and transactions, including personally
identifiable and Federal buildings information. Under the Recovery Act, GSA has been given
approximately $5.8 billion for construction and renovation of Federal buildings and improving the
fuel efficiency of government vehicles. This money must be spent with increased speed and
transparency, and GSA will rely on its information systems to track, report, and manage Recovery
Act funds and information. Working with system security officials across GSA to address the risk
areas highlighted in this report can better enable GSA to meet its security objectives and the
requirements of the Recovery Act with speed and transparency.

Recommendations

To improve GSA’s IT Security Program and better ensure the security of Agency systems, data,
and operations, we recommend that the GSA Chief Information Officer take actions to:

   1. Strengthen system certification and accreditation (C&A) processes by:

           a. Developing language to be included in C&A contracts for the provision of adequate
              details on methods used to conclude on the effectiveness of system security
              controls and updating Agency security guidance accordingly.
           b. Enhancing oversight processes to ensure that detailed information on testing
              procedures and methodologies is provided in system C&A packages.
           c. Collaborating with system security officials to ensure that system boundaries and
              controls for minor applications are adequately considered with C&A activities.

   2. Enhance the security of internal applications by working with GSA Services/Staff
      Offices/Regions to:

           a. Develop and maintain an inventory of internal applications, including the data
              maintained and functions performed by these applications.
           b. Ensure that these applications, including those we have identified in Appendix D,
              meet GSA security requirements.
           c. Strengthen change management procedures to better ensure that applications are
              put in operation with appropriate security controls.




                                                 iii
   3. Improve security of GSA’s social media technologies, such as blogs and wikis, by:

          a. Reviewing all Agency-operated social media sites to ensure that appropriate access
             controls are established for creation and maintenance of such sites.
          b. Incorporating the Agency’s social media policy into security awareness training
             and rules of behavior.
          c. Ensuring that periodic security reviews of social media sites are performed.

   4. Work with the Chief Human Capital Officer, Chief Acquisition Officer, and other Agency
      officials, as appropriate, to enhance the security of systems supported by contractors by:

          a. Developing an inventory of contractors supporting GSA IT systems that have
             significant privacy information responsibilities.
          b. Ensuring that appropriate security awareness and privacy training is provided to
             contractors supporting GSA systems, including role-based training for contractors
             with significant privacy information responsibilities.
          c. Prioritizing ongoing efforts to analyze and mitigate the use of non-government
             domains for GSA systems by focusing on systems provided by contractors as
             managed service offerings.
          d. Ensuring that appropriate privacy clauses are included in contracts, statements of
             work, and task orders for Privacy Act systems.

Management Comments

The GSA Chief Information Officer concurred with the audit findings and recommendations
outlined in this report. A copy of the Chief Information Officer’s comments is included in its
entirety in Appendix E.




                                              iv
                              FY 2009 OFFICE OF INSPECTOR GENERAL
                              FISMA REVIEW OF GSA’S INFORMATION
                                TECHNOLOGY SECURITY PROGRAM
                                REPORT NUMBER A090126/O/T/F09011

                                        INTRODUCTION

Information security threats to Federal agencies, including the General Services Administration
(GSA), are growing and evolving. For example, the number of security related incidents
reported by Federal agencies to the United States Computer Emergency Readiness Team (US-
CERT) has increased significantly over the last three years. Information security is a critical
consideration for GSA as it carries out its mission, responds to the requirements of the American
Recovery and Reinvestment Act of 2009 (Recovery Act), and works to implement transparency
and open government initiatives to make Agency operations more transparent, participatory, and
collaborative. To meet its mission, GSA relies on a portfolio of 94 information systems with a
total enacted budget in Fiscal Year (FY) 2009 of approximately $540 million. 4 GSA has
established an agency-wide Information Technology (IT) security program, which is managed by
the Office of the Chief Information Officer (OCIO), to provide for the confidentiality, integrity,
and availability of Agency information systems.

An agency-wide IT security program provides a management framework for ensuring that risks
are understood and that effective controls are selected and properly implemented for Agency
information systems. The Federal Information Security Management Act of 2002 (FISMA) is
the primary legislation governing Federal information security programs, and it builds upon
earlier legislation through added emphasis on the management of information security. FISMA
directs agencies to develop, document, and implement an agency-wide information security
program to provide information security for the operations and assets of the agency. FISMA also
directs Inspectors General (IGs) to perform an annual independent evaluation to determine the
effectiveness of information security programs and practices of their respective agency. These
evaluations are to include: (1) testing of the effectiveness of information security policies,
procedures, and practices of a subset of the agency’s information systems; and (2) an assessment
of compliance with FISMA requirements and related information security policies, procedures,
standards, and guidelines.

This audit report presents the results of the GSA Office of Inspector General’s (OIG) FY 2009
annual review of GSA’s IT Security Program, and reflects results from system security audits
conducted during the year in response to FISMA requirements. Appendix B provides a
description of the select systems considered in our independent evaluation and Appendix C
summarizes key security control areas where we found that additional steps need to be taken to
better manage risks for these specific GSA systems.




4
    As reported on the IT Dashboard.

                                                1
                                      RESULTS OF AUDIT

GSA has taken steps to develop, document, and implement an agency-wide IT security program
and also provide information security for the operations and assets managed by the Agency. The
GSA Chief Information Officer (GSA-CIO) recently revised agency-wide IT security policy and
has published several new guides to support risk management activities for IT systems and to
address prior years’ audit findings. We also noted improvements in the implementation of
GSA’s IT Security Program for select agency systems. However, we found areas where
additional improvements are needed in GSA’s IT Security Program and instances where system
security officials’ practices did not mitigate risks and protect sensitive Agency data and systems,
as required. IT security findings for our annual FISMA review fall into four main areas: (1)
certification and accreditation of system controls, (2) internal application security, (3) security of
social media technologies (e.g., blogs, wikis), and (4) oversight of systems provided by
contractors. Further, Appendix C summarizes key control areas where we found improvements
were needed to better manage risks for specific GSA systems, including for access control, audit
logging and monitoring, and secure configuration of system devices.

While GSA has established a certification and accreditation (C&A) process that is based on
Federal policy and guidance, implementation of this process by system owners has not ensured
that risks are managed or key information provided to support risk-based decisions. Specifically,
we identified applications processing sensitive information that were not covered under existing
C&A’s, and detailed information on the assessment procedures and methodologies employed to
determine the adequacy of controls in place were not available for select systems. This resulted
in security vulnerabilities that were not being addressed and impacted the ability of management
and GSA’s customer base to rely on approved controls to make informed decisions about system
security. Our audit work also identified several internal GSA applications with security control
weaknesses, including with access controls, which provided anyone in the Agency the ability to
view sensitive transactions and information, including personally identifiable and secure
buildings information. GSA is also implementing emerging social media technologies, such as
blogs, to facilitate collaboration and sharing of information within the Agency and with the
public. We found a need to enhance oversight of these technologies to ensure that they meet
GSA security requirements and that appropriate access controls are implemented for creating and
posting Agency information. Finally, increased security and privacy program oversight of
contractor supported systems could provide additional assurance to GSA and customer agencies
that required security controls have been implemented and sensitive information is protected.

Under the Recovery Act, GSA has been given approximately $5.8 billion for construction and
renovation of Federal buildings and courthouses and improving the fuel efficiency of
government vehicles. This money must be spent with increased speed and transparency, and
GSA will rely on its information systems to track, report, and manage Recovery Act funds and
information. Working with system security officials across GSA to address the risk areas
highlighted in this report can better enable GSA to meet its security objectives and the
requirements of the Recovery Act with speed and transparency.




                                                  2
Improvements to Agency-wide Certification and Accreditation Processes Would Better Assist
Management and Provide Additional Information for Making Risk-based Decisions

While GSA has established an agency-wide certification and accreditation (C&A) process based
on Federal policy and guidance, and all five of the select systems we reviewed had been certified
and accredited, improvements in implementation of this process are needed in two main areas to
ensure that sensitive information and risks are being managed. First, as reported by the OIG last
year, 5 system C&As are not consistently ensuring that risks with minor applications 6 in GSA are
being mitigated as needed. Specifically, we found that several internal Agency applications that
stored or transmitted sensitive information were not covered by existing system security plans.
Further, for two of the five systems we reviewed, including the only “high” risk system in GSA,
details on the methods and procedures utilized to conclude on the effectiveness of security
controls in place were not identified or documented as part of C&A activities. While
improvements have been made with implementation of GSA’s C&A process, taking steps to
address these areas could provide vital information, support risk-based decisions, and protect
sensitive information and electronic transactions.

Through a search of GSA’s Intranet site, we identified several internal applications storing
sensitive information that had not been included in existing system security plans. These
applications were operating with security control weaknesses that permitted anyone with access
to GSA’s Intranet, including contractors, to view sensitive information. This access spanned
Personally Identifiable Information (PII), Sensitive but Unclassified (SBU) buildings
information, and financial information (refer to the next section and Appendix D for additional
information). Primary causes for these weaknesses were that GSA does not have a
comprehensive inventory of its internal applications and system security officials were unaware
that these applications had been developed and implemented. GSA’s IT Security Policy requires
all information systems, including minor applications, to be covered by a system security plan.
Further, FISMA requires agency information security programs to include subordinate plans for
providing adequate information security for networks, facilities, and systems, or groups of
systems, as appropriate.

For two of five systems we reviewed, including GSA’s only “high” risk system, assurances were
not provided in the C&A package regarding the methodologies and procedures utilized to
conclude on the effectiveness of system controls. A primary cause for this was that contract
documents for C&A services did not require this information. A lack of such information limits
the ability of GSA management and the Agency’s customer base to rely on the C&A to make
risk-based decisions. National Institute of Standards and Technology (NIST) Special Publication
(SP) 800-37 7 notes that agency officials should have the most complete, accurate, and




5
  FY 2008 Office of Inspector General FISMA Review of GSA’s Information Technology Security Program, Report
Number A080081/O/T/F08016, September 11, 2008.
6
  NIST defines a minor application as an application, other than a major application, that requires attention to
security due to the risk and magnitude of harm resulting from the loss, misuse, or unauthorized access to or
modification of the information in the application.
7
  NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems, May
2004.

                                                       3
trustworthy information possible on the security status of their information systems in order to
make timely, credible risk-based decisions.

Security certification and accreditation encompass activities that are an integral part of GSA’s IT
risk management process. Improving results for GSA’s C&A process can provide additional
security for sensitive Agency information and systems. Specifically, we recommend that the
GSA-CIO take actions to strengthen C&As for GSA systems by: (1) developing language to be
included in C&A contracts for the provision of adequate details on methods used to conclude on
the effectiveness of system security controls and updating Agency security guidance
accordingly; (2) enhancing oversight processes to ensure that detailed information on testing
procedures and methodologies is provided in system C&A packages; and (3) collaborating with
system security officials to ensure that system boundaries and controls for minor applications are
adequately considered with C&A activities.

Security Controls for Internal GSA Applications Should Be Strengthened to Reduce Risks with
Sensitive Agency Information and Transactions

GSA’s Services/Staff Offices/Regions (S/SO/Rs) rely on internal applications to support Agency
operations, and we found weaknesses in security controls for several of these applications. We
found applications that were available to anyone with access to GSA’s Intranet site, which
potentially includes several thousand employees and contractors. Further, these applications
were not always encrypting sensitive information that was being transmitted and stored inside of
GSA. Appendix D provides a summary of the internal applications we identified where
appropriate security controls were not in place and information that was placed at risk due to
control weaknesses.

Specifically, we found an internal Regional application providing access to shared SBU
drawings and other sensitive files for Federal buildings to anyone with access to GSA’s Intranet.
For this same Region, another application used to input data to GSA’s financial management
system of record lacked appropriate access controls, enabling access to PII and the ability to
submit transactions. System officials informed us that compensating controls were in place to
address these weaknesses. However, system controls to detect potential fictitious transactions
submitted through this application were not documented or available for testing. In addition, we
identified several other internal applications supporting GSA Services and Staff Offices that
were not securely configured. For example, an application being used by the Federal Acquisition
Service (FAS) for management and tracking of system problem tickets, such as for user requests
for password resets or for problems with usability, permitted unauthorized access to anyone in
GSA.

Along with weaknesses in access controls for internal applications, we identified sensitive
information including PII, financial information, and SBU buildings information that was
available to those without a need to know. We found sensitive usernames and passwords and
program code for specific GSA systems that was not adequately protected. If this information
were to be obtained by a malicious user, it could lead to identity theft, financial fraud, or harm to
GSA’s reputation. Further, while GSA has several protections in place to prevent a malicious
individual from gaining access to the Agency’s internal network, if an outsider was able to
circumvent these protections, this information is not stored or restricted properly to prevent


                                                 4
unauthorized access that could disrupt GSA operations. Appropriate encryption and access
controls would limit the ability of malicious internal or external users to gain access to this
information.

There are three primary causes for these application security control weaknesses. First, system
security officials were not always aware that these applications were developed and put into
operation on GSA’s internal network. Second, a comprehensive inventory of internal
applications, including the data maintained and functions performed by these applications, has
not been developed. Third, C&A’s, particularly for general support systems, have not ensured
that risks with these types of applications are effectively managed. While GSA’s IT Security
Policy requires that system access be granted on a need to know basis and that all information
systems incorporate proper user identification and authentication methodologies, these
applications fell through the cracks. Further, data owners are required by the policy to ensure
that system access is restricted to authorized users in order to enforce job function alignment,
segregation of duties, and need to know. In addition, web application security guidance provided
by the GSA-CIO notes that sensitive information should be encrypted and applications should
use secure transmission protocols.

With implementation of the Recovery Act, GSA has been provided approximately $5.8 billion to
construct and renovate Federal buildings, as well as improve the fuel efficiency of the Federal
fleet. Undertaking Recovery Act projects will require GSA to utilize internal applications to
track and manage funds and other information. As such, ensuring that appropriate controls are
implemented to enforce segregation of duties and need to know for access to agency applications
is critical to prevent fraud, waste, and abuse. We recommend that to enhance the security of
internal applications, the GSA-CIO work closely with Agency S/SO/Rs to: (1) develop and
maintain an inventory of internal applications, including the data maintained and functions
performed by these applications; (2) ensure that these applications, including those we have
identified in Appendix D, meet GSA security requirements; and (3) strengthen change
management procedures to better ensure that applications are put in operation with appropriate
security controls.

Enhancing Oversight of Emerging Social Media Technologies Could Facilitate Secure
Collaboration and Information Sharing Within GSA and With the Public

To meet goals for government that is more citizen-centered, transparent, participatory, and
collaborative and to facilitate collaboration and information sharing internally and with the
public, GSA has been implementing important social media technologies. Increased oversight
and monitoring of these technologies is needed to ensure that only authorized individuals are
able to create social media web sites in GSA and that sensitive Agency information is protected.
While GSA has established a process to request, review, and approve the creation of internal and
public facing social media related sites, we found that anyone in GSA with a Lotus Notes e-mail
account, including contractors, was able to bypass this process and create sites on the internal
GSA network. We also identified internal social media sites that lacked appropriate access




                                               5
controls, and a public facing wiki owned by GSA that had been the target of spam postings. 8
Promptly after we informed system security officials of these vulnerabilities, steps were taken to
fix the security weaknesses. While GSA recently developed detailed policy for the use of social
media technologies, 9 these weaknesses demonstrate a need to take a more proactive approach to
ensure that this technology promotes secure collaboration and sharing of information within
GSA and with the public.

Social media encompasses various activities that integrate technology, social interaction, and
content creation. Examples of social media technologies include blogs, wikis, and social
networking sites. Table II below provides a description of these technologies. GSA encourages
the use of social media technologies to enhance communication, collaboration, and information
exchange in support of GSA’s mission and the Agency has developed a number of internal and
external blogs. For example, the Chief Financial Officer has developed an internal blog to
provide a forum for expanding communications on performance management, planning,
budgeting, and financial management.

                                Table II. Select Social Media Technologies 10

          Social Media Technology                                    Description
                                             A web based forum with regular entries of commentary,
                                             descriptions of events, or other materials where the blog
                      Blog
                                             host posts material on the website and others may provide
                                             comments.
                                             A collection of web pages that encourages users to
                      Wiki
                                             contribute or modify content.
                                             Tools used to connect people who share the same interests
          Social networking services
                                             or activities.
                                             A way of publishing audio files on the web so they can be
                     Podcast
                                             downloaded to portable listening devices.

There were three primary causes for security weakness with GSA’s use of social media
technology. First, C&A for the component of GSA’s Lotus Notes infrastructure that provides the
capability to create and manage social media related sites is still in the process of being
completed. As such, security controls assessment for these sites had not yet been completed.
Secondly, at the time of our testing, GSA had not finalized detailed policy and procedures for the
creation, use, and maintenance of social media sites. As previously noted, GSA has since
distributed policies and procedures for the use of social media technologies. A general condition
that contributed to these weaknesses was that agency officials were not performing
comprehensive oversight of internally generated social media sites.




8
  Spam postings are unsolicited bulk messages that often contain malware. Malware refers to a program that is
inserted into a system, usually covertly, with the intent of compromising the confidentiality, integrity, or availability
of the victim’s data, applications, or operating system.
9
  GSA Order CIO 2106.1, GSA Social Media Policy, July 17, 2009; GSA Order CIO P 2106.2, GSA Social Media
Handbook, July 17, 2009.
10
   GSA Order CIO P 2106.2, GSA Social Media Handbook, July 17, 2009.

                                                            6
As a result of the weaknesses that we identified with GSA’s use of social media technologies,
there was increased risk that users could create sites for malicious purposes. Further, weak
access controls for internal blogs can lead to users posting misleading information and
impersonating authorized GSA officials. This could harm GSA’s reputation and provide an
avenue for phishing 11 attacks. GSA’s IT Security Policy requires all information systems to be
certified and accredited and have access controls implemented to authorize or restrict the
activities of users and system personnel to authorized transactions and functions. In addition,
GSA’s Social Media Handbook notes that requests to create blogs must be approved by the
Regional Administrator or Head of a Service or Staff Office.

Social media technologies are important tools to enhance communication, collaboration, and
information exchange in support of GSA’s mission. These technologies are also important to
make Agency operations more transparent, participatory, and collaborative. To facilitate secure
collaboration and information sharing within GSA and with the public, we recommend that the
GSA-CIO take actions to: (1) review all Agency-operated social media sites to ensure that
appropriate access controls are established for creation and maintenance of such sites; (2)
incorporate the Agency’s social media policy into security awareness training and rules of
behavior; and (3) ensure that periodic security reviews of social media sites are performed.

Strengthening Oversight Processes is Needed to Ensure the Security of Contractor Supported
Systems

While GSA’s IT Security Program has established processes to provide oversight of systems
supported by contractors, improvements are needed to ensure that sensitive Agency and
customer information is protected. For two of the five systems we reviewed, we found that
system security officials had not ensured that all contractors supporting GSA systems had been
provided with security awareness and privacy training. We also found that required privacy
clauses were not included in contract documents for Privacy Act systems and that management
attention was needed to prioritize ongoing efforts to analyze and mitigate the use of non-
government domains for GSA systems provided by contractors. GSA, like other Federal
agencies, relies on contractors for systems development, maintenance, and operation for select
systems managed by the Agency. Over half of the systems listed on GSA’s FISMA inventory
are classified as “contractor” systems, including those offered as managed services that support
other Federal agencies. Ensuring that these systems meet GSA security requirements is
important to achieving GSA’s mission and for protecting sensitive Agency and customer
information.

GSA provides security awareness and privacy training through GSA Online University to
Agency associates and contractors that have Lotus Notes GSA e-mail addresses. However, not
all contractors directly supporting Agency systems have these e-mail addresses. While
contractors are oftentimes provided with security awareness and privacy training from their
employer, system officials have not ensured that this training meets GSA requirements. Further,
GSA does not yet have a complete inventory of contractors with significant privacy information


11
  Phishing refers to tricking individuals into disclosing sensitive personal information through deceptive computer-
based means. To perform a phishing attack, an attacker creates a web site or e-mail that looks as if it is from a well-
known organization.

                                                           7
responsibilities, which makes it difficult to identify those individuals who should take requisite
training. In addition, for two Privacy Act systems we reviewed, security officials did not
perform adequate oversight to ensure that appropriate privacy clauses were included in
associated contracts. As a result, GSA may be unable to hold contractors accountable for any
deviations from security or privacy policies. Further, contractors may be unaware of their
responsibilities to secure GSA systems and data. GSA’s IT Security Policy requires all GSA
employees and contractors to complete annual security awareness and privacy training and that
all Agency contracts involving Privacy Act information include appropriate privacy clauses.

For two of the five systems we reviewed that were provided by contractors as managed service
offerings to GSA and several other Federal organizations, we found that these systems were not
hosted on official government approved domains. Specifically these two systems were hosted on
commercial domains (.com) versus official government domains (e.g., .gov, Fed.us, or .mil). A
primary cause for this is that GSA has not yet made a determination if Agency systems that are
hosted on commercial domains should be migrated to approved government domains. As a
result, there is a greater risk that users of these systems would be susceptible to phishing attacks,
and GSA may not be able to take advantage of security improvements with the Federal
government’s Domain Name System Security (DNSSEC) initiative.12 OMB Memorandum M-
05-04 13 states that agencies must use only .gov, .mil, or Fed.us domains unless the agency head
explicitly determines another domain is necessary for the proper performance of an agency
function.

With the many systems in GSA that are supported by contractors for the Agency, it is important
for GSA’s IT Security Program to ensure that oversight mechanisms are strengthened to ensure
that these systems meet security requirements. This is of increased importance as contractor
supported systems in GSA are provided to several other Federal organizations. To strengthen
oversight of contractor supported systems, we recommend that the GSA-CIO work with the
Chief Human Capital Officer, Chief Acquisition Officer and other Agency officials, as
appropriate, to: (1) develop an inventory of contractors supporting GSA IT systems that have
significant privacy information responsibilities; (2) ensure that appropriate security awareness
and privacy training is provided to contractors supporting GSA systems, including role-based
training for contractors with significant privacy information responsibilities; (3) prioritize
ongoing efforts to analyze and mitigate the use of non-government domains for GSA systems by
focusing on systems provided by contractors as managed service offerings; and (4) ensure that
appropriate privacy clauses are included in contracts, statements of work, and task orders for
Privacy Act systems.




12
   For more information, see OMB Memorandum M-08-23, Securing the Federal Government’s Domain Name
System Infrastructure, August 22, 2008.
13
   OMB Memorandum M-05-04, Policies for Federal Agency Websites, December 17, 2004.

                                                  8
CONCLUSIONS

Information security is a critical consideration for GSA as it carries out its mission and responds
to the requirements of the Recovery Act. Information security is also important as GSA works to
implement transparency and open government initiatives to make Agency operations more
transparent, participatory, and collaborative. GSA has taken steps to develop, document, and
implement an agency-wide IT security program and provide information security for the
operations and assets of the Agency. Further, we noted improvements in system officials
implementation of GSA’s IT Security Program. However, additional improvements are needed
with GSA’s IT Security Program and systems officials’ implementation practices to protect
sensitive Agency and customer information and manage risks in four main areas: (1)
certification and accreditation of system controls, (2) internal application security (3) security of
social media technologies (e.g., blogs, wikis), and (4) oversight of systems provided by
contractors. Addressing these four areas could better enable GSA to meet its security objectives
and the requirements of the Recovery Act with speed and transparency.

RECOMMENDATIONS

To improve GSA’s IT Security Program and better ensure the security of Agency systems, data,
and operations, we recommend that the GSA Chief Information Officer take actions to:

   1. Strengthen system certification and accreditation (C&A) processes by:

           a. Developing language to be included in C&A contracts for the provision of
              adequate details on methods used to conclude on the effectiveness of system
              security controls and updating Agency security guidance accordingly.
           b. Enhancing oversight processes to ensure that detailed information on testing
              procedures and methodologies is provided in system C&A packages.
           c. Collaborating with system security officials to ensure that system boundaries and
              controls for minor applications are adequately considered with C&A activities.

   2. Enhance the security of internal applications by working with GSA Services/Staff
      Offices/Regions to:

           a. Develop and maintain an inventory of internal applications, including the data
              maintained and functions performed by these applications.
           b. Ensure that these applications, including those we have identified in Appendix D,
              meet GSA security requirements.
           c. Strengthen change management procedures to better ensure that applications are
              put in operation with appropriate security controls.

   3. Improve security of GSA’s social media technologies, such as blogs and wikis, by:

           a. Reviewing all Agency-operated social media sites to ensure that appropriate
              access controls are established for creation and maintenance of such sites.
           b. Incorporating the Agency’s social media policy into security awareness training
              and rules of behavior.
           c. Ensuring that periodic security reviews of social media sites are performed.

                                                 9
   4. Work with the Chief Human Capital Officer, Chief Acquisition Officer, and other
      Agency officials, as appropriate, to enhance the security of systems supported by
      contractors by:

           a. Developing an inventory of contractors supporting GSA IT systems that have
              significant privacy information responsibilities.
           b. Ensuring that appropriate security awareness and privacy training is provided to
              contractors supporting GSA systems, including role-based training for contractors
              with significant privacy information responsibilities.
           c. Prioritizing ongoing efforts to analyze and mitigate the use of non-government
              domains for GSA systems by focusing on systems provided by contractors as
              managed service offerings.
           d. Ensuring that appropriate privacy clauses are included in contracts, statements of
              work, and task orders for Privacy Act systems.

MANAGEMENT COMMENTS

The GSA-Chief Information Officer concurred with the audit findings and recommendations
outlined in this report. A copy of the Chief Information Officer’s comments is included in its
entirety in Appendix E.

INTERNAL CONTROLS

As discussed in the Objective, Scope, and Methodology section of our report (see Appendix A),
the objective of our audit was to determine if the General Services Administration (GSA) has
developed, documented, and implemented an agency-wide information security program to
provide information security for the data and systems that support the operations and assets of
the Agency. If not, what additional actions are needed to strengthen information security risk
management practices for GSA? While this audit included a review of elements of GSA’s IT
Security program including select management, operational, and technical controls for five GSA
systems, we did not test all controls across the Agency. The Results of Audit and
Recommendations sections of this report state, in detail, the need to strengthen specific processes
and controls established with GSA IT Security Program through collaboration with officials
across the Agency.




                                                10
                            FY 2009 OFFICE OF INSPECTOR GENERAL
                            FISMA REVIEW OF GSA’S INFORMATION
                              TECHNOLOGY SECURITY PROGRAM
                              REPORT NUMBER A090126/O/T/F09011

                APPENDIX A - OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine if the General Services Administration (GSA) has
developed, documented, and implemented an agency-wide information security program to
provide information security for the data and systems that support the operations and assets of
the Agency. If not, what additional actions are needed to strengthen information security risk
management practices for GSA? We focused our review on the implementation of processes
established with GSA’s Information Technology (IT) Security Program to manage risks for
select Agency IT systems. As such, we reviewed policies, procedures, technical guides, and
standards established with GSA’s IT Security Program to provide information security for the
Agency’s information resources and assets 14 . We also reviewed policies established for GSA’s
Privacy Program and for protection of Sensitive but Unclassified (SBU) buildings information 15 .
We assessed the implementation of GSA’s IT Security Program for five select Agency systems.
Appendix B provides additional information on the systems reviewed. For these select systems,
we conducted security audits to determine whether management, operational, and technical
controls had been implemented to effectively manage risks in accordance with the Federal
Information Security Management Act and GSA’s IT Security Program.

To gain an understanding of GSA’s IT Security Program and the implementation of controls for
select Agency systems, we met with GSA IT security officials in the Office of the GSA Chief
Information Officer and in Services, Staff Offices, and Regions (S/SO/R), including the Federal
Acquisition Service, Public Buildings Service, Office of the Chief Human Capital Officer, and
Office of the Chief Financial Officer. We also met with the GSA Chief Information Officer,
Senior Agency Information Security Officer, and security officials for the select systems we
reviewed. We also met with GSA’s external auditor, KPMG, and considered results of
information systems controls testing performed for the financial statement audit with our FISMA
reviews.

In our review of GSA’s IT Security Program, in addition to Agency policies and procedures, we
evaluated the implementation of information security program elements from National Institute
of Standards and Technology (NIST) Special Publication (SP) 800-100, Information Security
Handbook: A Guide for Managers, October 2006. To assess security controls, we applied the


14
   GSA Order CIO P. 2100.1D, GSA Information Technology Security Policy, June 21, 2007; GSA Order CIO
2106.1, GSA Social Media Policy, July 17, 2009; GSA Order CIO P 2106.2, GSA Social Media Handbook, July 17,
2009; GSA Directive CIO 2100.3A, IT Security Training Requirement for Agency and Contractor Employees with
Significant Security Responsibilities, June 26, 2008; GSA Order CIO 2104.1, GSA Information Technology (IT)
Rules of Behavior, July 3, 2003; and various procedural and technical guides and standards established by the GSA-
CIO.
15
   GSA Order CPO 1878.1, GSA Privacy Act Program, October 27, 2003; GSA Order CPO 1878.2, Conducting
Privacy Impact Assessments (PIAs) in GSA, May 28, 2004; GSA Order HCO 9297.2A, GSA Information Breach
Notification Policy, February 26, 2009; and PBS Order 3490.1A , Document Security for Sensitive but Unclassified
Building Information, June 1, 2009.

                                                      A-1
NIST Federal Information Processing Standards (FIPS) Publication 16 and SP 800 series security
guidelines. We also utilized other applicable regulations, policies, and guidance, including OMB
Circular A-130, Appendix III, Security of Federal Automated Information Resources, November
2000; and the following OMB memoranda: M-05-04, Policies for Federal Agency Public
Websites, December 17, 2004; M-07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information, May 22, 2007; M-07-11, Implementation of Commonly
Accepted Security Configurations for Windows Operating Systems, March 22, 2007; and M-08-
05, Implementation of Trusted Internet Connections (TIC), November 20, 2007.

To assess the effectiveness of GSA’s IT Security Program implementation, we examined system
certification and accreditation packages, including system risk assessments, security plans,
security assessment results, contingency plans, and system-and program-level plans of action and
milestones.     We conducted vulnerability scanning and database and web application
configuration testing for the select systems we reviewed. We manually tested specific security
controls for social media websites, such as blogs and wikis, and various internal applications.

We conducted this performance audit in accordance with generally accepted government
auditing standards between February and August of 2009. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




16
  FIPS Publication 199, Standards for Security Categorization of Federal Information and Information Systems,
February 2004; FIPS Publication 200, Minimum Security Requirements for Federal Information and Information
Systems, March 2006.

                                                      A-2
                       FY 2009 OFFICE OF INSPECTOR GENERAL
                       FISMA REVIEW OF GSA’S INFORMATION
                         TECHNOLOGY SECURITY PROGRAM
                         REPORT NUMBER A090126/O/T/F09011

APPENDIX B – SELECT GSA SYSTEMS CONSIDERED IN THE OIG’S FY 2009 REVIEW
        OF GSA’S INFORMATION TECHNOLOGY SECURITY PROGRAM

       APPENDIX C – SUMMARY OF NIST SP 800-53 CONTROL AREAS WHERE
          ADDITIONAL STEPS ARE NEEDED TO BETTER MANAGE RISKS
          FOR THE SELECT SYSTEMS REVIEWED BY THE OIG IN FY 2009

         APPENDIX D – SUMMARY OF SECURITY CONTROL WEAKNESSES
                IDENTIFIED IN INTERNAL GSA APPLICATIONS


Due to the sensitive nature of information contained appendices B-D, only reports provided
to system security officials and the GSA Office of the Chief Information Officer contain the
details of the appendices. Requests for the details of the appendices should be referred to
the Deputy Assistant Inspector General for Information Technology Audits.




                                       B-1; C-1; D-1
       FY 2009 OFFICE OF INSPECTOR GENERAL
       FISMA REVIEW OF GSA’S INFORMATION
         TECHNOLOGY SECURITY PROGRAM
         REPORT NUMBER A090126/O/T/F09011

APPENDIX E – GSA-CIO’S RESPONSE TO DRAFT REPORT




                       E-1
                                  FY 2009 OFFICE OF INSPECTOR GENERAL
                                  FISMA REVIEW OF GSA’S INFORMATION
                                    TECHNOLOGY SECURITY PROGRAM
                                    REPORT NUMBER A090126/O/T/F09011

                                   APPENDIX F – REPORT DISTRIBUTION

                                                                                                                               Copies

WITH APPENDICES B-D

Chief Information Officer (I) .......................................................................................................3

       Office of the Senior Agency Information Security Officer (IS) .........................................1
Commissioner, Public Buildings Service (P)...............................................................................1

Commissioner, Federal Acquisition Service (Q) .........................................................................1

Chief Financial Officer (B) ..........................................................................................................1

Chief Human Capital Officer (C) ................................................................................................1

Chief Acquisition Officer (V) ......................................................................................................1

Regional Administrator, Great Lakes Region (5A) .....................................................................1


WITHOUT APPENDICES B-D
Internal Control and Audit Division (BEI) ..................................................................................1

Assistant Inspector General for Auditing (JA and JAO) .............................................................2

Deputy Assistant Inspector General for Finance and Administrative Audits (JA-F) ..................1

Deputy Assistant Inspector General for Real Property Audits (JA-R) ........................................1

Deputy Assistant Inspector General for Acquisition Audits (JA-A) ...........................................1

Regional Inspector General for Auditing (JA-5) .........................................................................1

Administration and Data Systems Staff (JAS).............................................................................1

Assistant Inspector General for Investigations (JI) ......................................................................1




                                                                  F-1
